February 12, 2010

LINDA J. WELCH
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Lakeland Processing and Distribution Center Consolidation
         (Report Number EN-AR-10-004)

This report presents the results of our audit of the consolidation of the Lakeland, FL
Processing and Distribution Center (P&DC) outgoing mail operations to the Tampa, FL
P&DC (Project Number 09XG031EN000). The report responds to a congressional
request. Our objectives were to assess operational impacts of the consolidation and
compliance with established policies. This audit addresses operational risk. See
Appendix A for additional information about this audit.

Conclusion

There was a valid business case for consolidating mail processing operations from the
Lakeland P&DC to the Tampa P&DC. The consolidation should increase efficiency,
reduce processing costs, and improve service in support of the Postal Service’s network
streamlining efforts. In addition, we determined the area mail processing (AMP)
proposal was generally supported and in compliance with established policies.
Because our findings support the consolidation, we are not making any
recommendations. See Appendix B for our detailed analysis of this topic.

Management’s Comments

Management agreed with our conclusions and the report did not have any
recommendations. Management reiterated in their comments that accommodations
were made so First-Class Mail (FCM) and Priority mail originating in Lakeland and
returning to Lakeland will remain overnight service. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, the U.S. Postal Service
Office of Inspector General considers management’s comments responsive.
Lakeland Processing and Distribution                                         EN-AR-10-004
 Center Consolidation


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Frank Neri
    Tiffany Hagaman
    Mary J. Mahnke
    David M. Patterson
    Sally K. Haring




                                            2
Lakeland Processing and Distribution                                                            EN-AR-10-004
 Center Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service is facing one of the most difficult challenges in its history.
There has been a continual decline in FCM volume over the past decade. Since
peaking at 213 billion pieces in fiscal year (FY) 2006, mail volume dropped more than 9
billion pieces in FY 2008 and more than 25 billion in FY 2009, resulting in a net loss of
$3.8 billion.1 Another decline of 10-15 billion pieces is anticipated for FY 2010.

Although the Postal Service reduced expenses by almost $6.1 billion in FY 2009, this
reduction has not been sufficient to fully offset the decline in mail volume and rising
workers’ compensation and retirement costs. In recent testimony before Congress,2 the
U.S. Government Accountability Office (GAO) recommended that urgent action was
needed to streamline the mail processing and retail networks, as the Postal Service no
longer has sufficient revenue to cover the cost of maintaining its large network of
processing and retail facilities. Furthermore, the GAO indicated it was necessary for the
Postal Service to consider whether it was cost effective to retain underutilized facilities
and to take action to right size its network. In 2003, the President’s Commission on the
Postal Service found the Postal Service had more facilities than it needed and noted the
agency faced political resistance to closing or consolidating its facilities, along with
restrictive statutory requirements.

The Postal Service revised Handbook PO-408, Area Mail Processing Guidelines, in
2008 to improve the consistency of data and the implementation process. AMP
consolidations are designed to make more efficient use of Postal Service assets such
as equipment, facilities, staffing, and transportation; improve operational efficiency
and/or service; and eliminate excess mail processing capacity at postal plants/facilities.
AMP may involve the consolidation of originating operations (canceling and sorting
locally generated mail), destinating operations (sorting and preparing mail received from
more distant areas for local delivery), or both.

This report also responds to a request from a Congressional Representative of Florida’s
12th Congressional District (see map 1) to examine the consolidation of outgoing mail
processing operations from the Lakeland P&DC into the Tampa P&DC. Congressional
concerns included:




1
 Excludes $4 billion in required payments for retiree health benefits passed into law for FY 2009.
2
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.




                                                      3
Lakeland Processing and Distribution                                                                     EN-AR-10-004
 Center Consolidation



          Possible loss of jobs.
          Continued effectiveness of mail operations.
          Continued quality of service.
          Public transparency.

                             Map 1: Florida’s 12th Congressional District




The Postal Service conducted an AMP study in November 2008 to determine whether it
would increase efficiency by consolidating Lakeland P&DC outgoing3 mail processing
operations into the Tampa P&DC. The Tampa P&DC was already processing Lakeland
P&DC outgoing mail on Saturdays. In October 2009, Lakeland’s originating daily
volume of approximately 237,689 pieces was consolidated into the Tampa P&DC. The
Lakeland P&DC continues to process its incoming (destinating) mail.

The Lakeland P&DC is approximately 39 miles from the Tampa P&DC. Both facilities
are part of the Suncoast District in the Southeast Area (see map 2).

The Suncoast District consolidated originating mail processing from the St. Petersburg
P&DC into the Tampa P&DC in June 2008. The Manasota P&DC consolidation into the
Tampa P&DC is scheduled for completion by April 2010.




3
    Mail originating at the Lakeland P&DC from collections, window units, or Business Mail Acceptance.




                                                           4
Lakeland Processing and Distribution                                                                                             EN-AR-10-004
 Center Consolidation


               Map 2: Districts Within the Postal Service Southeast Area


                                   Tennessee
                                   307, 370-385                                                                 Southeast Area
                                                                                                                      FY 2010
                                                         Atlanta
                                                       300-303,
                                                       305, 306,
                                                       311, 399
                                     Alabama
                   Mississippi
                                    350-352, 354-368
                    369, 386-397
                                                             South Georgia
                                                            298, 299, 304, 308-310,
                                                                 312-319, 398




                                                          North Florida
                                                                       320-326, 344




                                                                                 Suncoast
                                                                                      327-329,
                                                                                      335-339,
                                                                                      341, 342,
                                                                                      346, 347
                                                                                          South Florida
                                                                                                     330-334,
                                                                                                     340, 349




OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to assess operational impacts of the consolidation and
compliance with established policies. In response to the congressional request, we
evaluated the operational impacts, efficiency gains, cost savings, and service
implications of the Lakeland P&DC into the Tampa P&DC consolidation proposal.

We reviewed current and historical data for the Lakeland and the Tampa P&DCs. We
examined data for FY 2008 (October 1, 2007, through September 30, 2008) to confirm
information on the AMP worksheets. Additionally, we conducted observations at both
sites during the week of August 3, 2009, interviewed Postal Service officials and
employees, and reviewed applicable guidelines, including Handbook PO-408.

We used computer-processed data from the following systems to analyze workhours,
mail volumes, staffing, service, transportation, and maintenance:

       Activity Based Costing.
       Collection Point Management System.
       Enterprise Data Warehouse (EDW).
       Facility Access and Shipping Tracking.
       Service Standard Directory.
       Web Complement Information System.
       Web Enterprise Information System.




                                                                             5
Lakeland Processing and Distribution                                        EN-AR-10-004
 Center Consolidation


We did not test the reliability of computer-generated data from these systems.
However, we checked the accuracy and reasonableness of the data by confirming our
analysis and results with management.

We conducted this performance audit from July 2009 through February 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on December 8, 2009, and included
their comments where appropriate.




                                           6
Lakeland Processing and Distribution                                                              EN-AR-10-004
 Center Consolidation


PRIOR AUDIT COVERAGE

                                         Final
                         Report         Report
   Report Title          Number          Date                             Report Results
                                                        The AMP process was fundamentally sound. However,
                                                        management could improve the process by updating
                                                        AMP guidance, processing and approving AMPs timely,
Area Mail Processing
                       NO-AR-06-001    12/21/2005       conducting Post Implementation Reviews (PIR) on all
Guidelines
                                                        AMPs, and addressing stakeholder resistance.
                                                        Management agreed with the findings and
                                                        recommendations.
                                                        The Postal Service is taking an incremental approach to
                                                        streamlining the mail processing networks using the
Status Report on the
                                                        Evolutionary Network Development initiative as a
Evolutionary Network
                       NO-MA-06-001    03/20/2006       framework. This represents a shift from its initial focus
Development
                                                        of optimizing the performance of the entire mail
Initiative
                                                        processing and transportation infrastructure. The report
                                                        did not include recommendations.
                                                        The Postal Service could improve the way it documents
                                                        service impacts in AMP proposals and PIRs.
                                                        Management could improve the process if it revised
Service Implications
                                                        AMP policy to include guidance for reporting service
of Area Mail
                       EN-AR-07-002    12/05/2006       standards information; measuring service performance;
Processing
                                                        and documenting potential changes affecting customer
Consolidations
                                                        service, such as collection box pick-up times and
                                                        access to the business mail entry unit. Management
                                                        agreed with our recommendations.
                                                        The Postal Service’s revisions to AMP guidance have
                                                        resulted in significant improvements. Management
Management                                              incorporated 32 prior OIG audit recommendations on
Advisory - Automated                                    AMP policy into the revisions. Additional enhancements
                       EN-MA-08-001    10/19/2007
Area Mail Processing                                    could further improve AMP guidance with regard to such
Worksheets                                              things as workhours, transportation, communication,
                                                        service, performance indicators, and supervisory ratios.
                                                        Management agreed with our recommendations.
                                                        We concluded the Postal Service has improved
                                                        communication and generally addressed prior audit
                                                        recommendations. We recommended several methods
Area Mail Processing                                    of further increasing stakeholder notification, including
                       EN-AR-09-001    02/04/2009       exploring electronic methods. Management agreed with
Communication
                                                        our recommendation to add employee input notifications
                                                        but disagreed with our recommendation to explore
                                                        additional communication channels.




                                                    7
Lakeland Processing and Distribution                                                                   EN-AR-10-004
 Center Consolidation


                                 APPENDIX B: DETAILED ANALYSIS

Operational Impacts

Staff reductions seem reasonable based on the proposed AMP projections.4 The
transfer of outgoing mail processing operations from the Lakeland P&DC to the Tampa
P&DC will impact 39 positions at the Lakeland P&DC, with an estimated net reduction of
31 positions. Management plans to accomplish this by:

         Moving eight employees to the Tampa P&DC;
         Reducing complement through attrition and retirement; and
         Transferring employees to other local facilities.

Management followed procedures outlined in the national agreements between the
Postal Service and the impacted unions, including notification of unions and employees.

In a national effort to consolidate excess capacity, the Tampa and Lakeland P&DCs are
reducing complement due to mail volume reductions. As of November 2009, the
Lakeland P&DC has reduced complement by 43 positions. These reductions are in
addition to the complement reductions associated with the consolidation. Table 1
illustrates changes that have occurred based on this initiative, along with the AMP
projections.

                          Table 1: Lakeland P&DC Complement Changes

                          Positions On-Rolls                             AMP Consolidation Positions
                      AMP
                                 Nov-09     Change      Proposed      Impacted      Moved to Tampa     Net Reduced
                     Nov-08
       Craft           211         174         (37)         177          (34)                7             (27) 
    Management         21           15         (6)           16           (5)                1              (4) 
      Total            232         189         (43)         193          (39)                8             (31) 

Efficiency Gains

Processing productivity5 increased for the Tampa P&DC from FY 2008 to FY 2009.
Prior to any consolidations, the Tampa P&DC had a 56.9 percent Breakthrough
Productivity Initiative (BPI)6 performance achievement in FY 2007, which has steadily
improved since then to 67.8 percent in November 2009.7 At the same time, BPI
performance achievement for the Lakeland P&DC has remained relatively steady with
numbers ranging from 69.7 percent in FY 2008 to 69.8 percent, as of November 2009.


4
  AMP proposal approved by headquarters on March 24, 2009.
5
  Total Pieces Handled volume divided by workhours.
6
  Initiative to help focus and structure process improvement efforts to drive productivity growth.
7
  FY 2010 BPI scorecard generated November 23, 2009.




                                                            8
Lakeland Processing and Distribution                                                                   EN-AR-10-004
 Center Consolidation


However, the cost for standby operations8 also increased from $2,302 in FY 2008 to
$69,466 in FY 2009, due to declines in mail volume. Challenges remain to reduce
workhours to match volume declines, due to the lack of workforce flexibilities.

Customer Satisfaction Measurement9 scores for the Tampa and Lakeland P&DCs were
higher than the national level for each quarter in FY 2008 and FY 2009. See table 2 for
trend chart.


                    Table 2: Residential Overall Performance Trend
                              Tampa and Lakeland P&DCs
                               Fiscal Years 2008 and 2009




                   Source: Customer Knowledge Management, Consumer Affairs

The Tampa P&DC is approximately 39 miles from the Lakeland P&DC, and volumes are
being moved on existing and modified transportation, with little or no additional cost to
the Postal Service. Transportation supporting the Lakeland P&DC is exclusively
highway contract route.

Cost Savings

Projected annual savings are realistic and attainable based on current available data.
Through increased productivity gained by moving the outgoing operations,
transportation changes, and the reduction of 31 positions, the Suncoast District projects
to save about $1.5 million annually. The majority of the savings will come from almost
$1.4 million in reduced labor costs. Actual savings will not be known until 1 year after
implementation and will be assessed as part of the PIR process.


8
  Workhours of mail processing employees who are kept on the clock, but are idle as a result of lack of work or low
volume periods.
9
  Gallup survey scores that are based on customer experience.




                                                          9
Lakeland Processing and Distribution                                                                      EN-AR-10-004
 Center Consolidation


Service Implications

Net service standards10 improved for all categories of mail previously processed at the
Lakeland P&DC. Our analysis of the Service Standard Directory (SSD) data showed
two additional service downgrades that were not reported on the AMP proposal. These
downgrades were in FCM and Priority Mail originating in Lakeland, being transported to
the Tampa P&DC for processing and then returning to Lakeland for delivery. During our
discussions with management about this issue, they stated that accommodations will be
made so FCM and Priority mail originating in Lakeland and returning to Lakeland will
remain overnight. Table 3 shows impacts to the service standards based on the AMP
proposal. 


                                   Table 3: Service Standard Impacts
                                           Upgrades        Downgrades           Net Change
                           FCM                 5               1*                    4
                          Priority            5                1*                    4
                        Periodicals           10               1                     9
                         Standard             3                1                     2
                        Packages              3                1                     2
                           Total              26               5                    21
                        (*) Indicate downgrades not reflected in the AMP proposal

External First-Class Measurement (EXFC)11 scores for the Tampa and Lakeland
P&DCs generally remained above the national average for FY 2009. Postal Service
officials expect that performance to continue with the consolidation. See table 4 for
comparison.




10
   A service standard is an expectation of the Postal Service to deliver a mailpiece to its intended destination within a
prescribed number of days following proper deposit by a postal customer.
11
   EXFC is a test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery
customer.




                                                           10
Lakeland Processing and Distribution                                                                    EN-AR-10-004
 Center Consolidation


                              Table 4: Comparison of EXFC Scores
                              Fiscal Year 2009 – Quarterly Averages




Source: EDW                                                          Legend:            Tampa P&DC

                                                                                        Lakeland P&DC

                                                                                        National Average



Because of the consolidation, Lakeland P&DC originating volumes will arrive after
20:00, which will affect the 24-Hour Clock indicator12 “Collections by 20:00.” However,
managers are cognizant of this issue and have made transportation accommodations to
ensure timely arrival at the delivery unit.

There were no changes to local mail collection box times or business mail entry unit
operations as a result of the consolidation. A Lakeland postmark remains available at
the retail unit and wall drop at the Lakeland P&DC.

Public Transparency

Notice of initiation of the feasibility study, completion of the study, and approval of the
consolidation was done in accordance with AMP and AMP communication guidelines.
Specifically, the public input meeting was held within 45 days of completion of the
feasibility study and 15 days were provided for feedback after the meeting.

Both draft and final AMP worksheets can contain commercially sensitive information,
the public disclosure of which could cause competitive harm to the Postal Service. As a
result, worksheets have to be reviewed and sensitive data redacted according to Postal
Service guidance before public disclosure.

12
   The 24-hour clock indicators show how key operations affect each other and may influence service. Each indicator
is a key link in providing service to downstream facilities and customers. Scores are compared nationally and used
locally by managers to address service performance issues.




                                                        11
Lakeland Processing and Distribution                                        EN-AR-10-004
 Center Consolidation



Although the Postal Service takes into account community impact/opposition, it is
mandated to operate like a business and has the fiduciary responsibility to make good
business decisions. Because of the dramatic decline in mail volume, the Postal Service
must reduce its mail processing operations to eliminate excess capacity in the network.




                                          12
Lakeland Processing and Distribution                       EN-AR-10-004
 Center Consolidation



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                       13
